PERLES LAW FIRM PC

1050 CONNECTICUT AVENUE, NW
SUITE 500
WASHINGTON, DC 20036
202.955.9055
www.perleslaw.com

_____________

March 25, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the
United States
Washington, D.C. 20543
Re: Consent Request for Delay in Distribution of Petition for Writ of
Certiorari in Klieman v. PA, No. 19-741 (docketed December 11, 2019).
Dear Mr. Harris:
I represent petitioners in the above-captioned matter. Pursuant to the Supreme
Court Miscellaneous Order dated March 19, 2020, Petitioners respectfully request a
seven day delay in distribution of the Petition for Certiorari in this action. Distribution
normally would occur on April 1, 2020. Respondents’ counsel, Gassan Baloul of Squire
Patton Boggs LLP, has authorized us to state that Respondents consent to this request.
Petitioners require more time to file a reply due to the COVID-19 outbreak. As
grounds for this requested extension, Petitioners state as follows: last week counsel was
forced to suddenly close their offices in order to minimize risk of potential infection of
their staff, and this disruption has impacted the production schedule of the reply brief.
Additionally, counsel’s printer has been forced to close some of their offices at different
times and has a smaller staff available for printing demands, which has suddenly and
drastically reduced the window available to produce the brief to allow for delivery to the
Court in time for distribution.
Accordingly, Petitioners respectfully request a seven day delay in distribution of
the Petition for Certiorari in this action. Please let me know if you need any additional
information.
Sincerely,
/s/ Steven R. Perles
Steven R. Perles

cc:

See Attached Service List

